HHS/OIG-Audit--"Review of the Health Care Financing Administration's Implementation of the Federal Managers' Financial Integrity Act for Fiscal Year 1991, (A-14-91-03413)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Health Care Financing Administration's Implementation
of the Federal Managers' Financial Integrity Act for Fiscal Year 1991,"
(A-14-91-03413)
July 30, 1992
Complete Text of Report is available in PDF format
(756 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Health Care Financing
Administration's (HCFA) implementation of the Federal Managers' Financial Integrity
Act (FMFIA) for Fiscal Year (FY) 1991. As a result of our review, nothing came
to our attention that would cause us to believe that HCFA was not in general
compliance with FMFIA. Although HCFA has made significant efforts in developing
its FMFIA program, we identified areas which warrant management's attention.
We believe that HCFA should: (1) review all financial management systems that
provide data to the accounting system in accordance with Section 4, (2) consider
reclassifying the risk assessments of internal control areas that are pending
material weaknesses and high risk areas, and (3) enhance the testing used to
evaluate the Medicare contractors' internal control activities.